                 Improvements Are Needed in the Invoice
                Review Process for the Business Systems
                        Modernization Contract

                                     June 2004

                       Reference Number: 2004-10-117




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                              DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                       June 29, 2004


       MEMORANDUM FOR CHIEF, AGENCY-WIDE SHARED SERVICES


       FROM:                         Gordon C. Milbourn III
                                     Acting Deputy Inspector General for Audit

       SUBJECT:                      Final Audit Report - Improvements Are Needed in the Invoice
                                     Review Process for the Business Systems Modernization
                                     Contract (Audit #200310019)


       This report presents the results of our review of the Business Systems Modernization
       (BSM) contract. The overall objective of this review was to determine whether the
       Internal Revenue Service (IRS) is properly reviewing and certifying invoices for the BSM
       contract to ensure all charges are accurate and supported.
       Because contract expenditures represent a significant outlay of IRS funds, the Treasury
       Inspector General for Tax Administration (TIGTA) has made a commitment to perform
       audits of these expenditures. We initiated this audit to review the process the IRS has
       in place to certify invoices for the BSM contract and ensure charges on the invoices are
       accurate and supported.
       In summary, the IRS’ process for reviewing and certifying invoices for this contract does
       not ensure all charges are accurate and supported. We found the contractor’s
       documentation was not adequate to support all the charges invoiced.
       According to the IRS Request Tracking System, as of September 2003, the IRS had
       approved payment of approximately $750 million for the BSM contract. Using a
       judgmental sample of 4 invoices from 1 judgmentally selected task order, we requested
       supporting documentation from the IRS and the contractor1 to verify approximately
       $17.6 million in direct charges claimed on the invoices. As a result of our analysis, we



       1
         We initially requested supporting documentation for the direct charges from the IRS. To complete the review, we
       needed to request additional information from the contractor to support the direct charges. Direct costs are those
       that can be identified specifically with a contract.
                                                          2

identified approximately $9.5 million2 (approximately 54 percent) in direct charges for
which neither the IRS nor the contractor provided any supporting documentation, the
supporting documentation did not adequately support the charge, or the charge was
unallowable. A minimal amount, approximately $1,400, is attributed to unallowable
costs.
Because we were unable to verify all the direct charges contained in our sample of four
invoices, there is no assurance the contractor billed the IRS accurately. Additionally,
without an effective process to ensure charges included on the invoices are accurate
and supported, the IRS is at risk of wasting Federal Government funds.
We recommended the Director, Office of Procurement, seek recovery of the $9.5 million
in unsupported charges unless the contractor provides acceptable support for those
charges. Additionally, the Director, Office of Procurement, should initiate a program to
review a representative sample of invoices submitted since the inception of the contract
and ensure charges paid are accurate and supported. Further, the Director, Office of
Procurement, should institute a policy of performing invoice reviews, which includes
obtaining supporting documentation from the contractor for the charges included on an
invoice, to ensure charges are accurate and supported before payment is made.
Management’s Response: Office of Procurement management responded that they
agree the documentation we reviewed did not, in some cases, adequately justify all
charges. However, subsequent to the audit, the IRS did assemble documentation that
demonstrates the contractor is accurately billing the IRS. In view of this, the Office of
Procurement believes its review process ensures charges are accurate and supported.
The Office of Procurement requested and received documentation from the contractor
to support the charges questioned. The Office of Procurement will continue to review
supporting documentation and will seek recovery of any unsupported charges, if
applicable. Office of Procurement management does not believe further corrective
action is necessary in reviewing the invoice charges. They believe the standard
contract closeout audits, performed for cost-reimbursement contract actions, will
accomplish the same objective as the recommendation, without the need for a separate
program. Additionally, the Office of Procurement has an existing policy for performing
invoice reviews, which includes obtaining supporting documentation to ensure charges
are accurate and supported before payment is made. While the audit team experienced
difficulty in obtaining documentation from the contractor for the review, the contractor
has committed to provide any documentation necessary to support the costs referenced
in the report, as well as any future requests for supporting documentation.
Management’s complete response to the draft report is included as Appendix V.
Office of Audit Comment: Subsequent to the issuance of the draft report, we met with
the contractor and the IRS. The contractor agreed to provide us and the IRS with all
supporting documentation to verify the $9.5 million in questioned costs. After our review


2
 Subsequent to the issuance of the draft report, the contractor provided documentation to support all but
approximately $52,200 of the $9.5 million we originally questioned.
                                              3

of the additional documentation, we were able to verify all but approximately $52,200 of
the $9.5 million we originally questioned. The $52,200 consists of $27,650 in
unsupported charges and $24,515 in unreasonable or unallowable charges. The
contractor should continue to work with the IRS to provide additional support for the
$27,650 in unsupported charges. However, if the contractor is unable to provide
supporting documentation, the IRS should seek recovery of any outstanding
unsupported charges and the $24,515 in unreasonable or unallowable charges.
The contractor initially did not provide sufficient documentation to support the charges
on the four invoices we selected for our review. However, after the draft report was
issued to the IRS, the contractor cooperated and provided the appropriate
documentation to support the invoices. The contractor’s delays in providing the
necessary documentation prevented us from completing this audit timely. To assure
that its billings are adequately justified, and to facilitate timely, independent review by
TIGTA auditors, we believe the IRS should strengthen its invoice review process by
routinely requesting and reviewing a sample of supporting documents.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations), at (202) 622-8500.
                 Improvements Are Needed in the Invoice Review Process for the
                          Business Systems Modernization Contract




                                                  Table of Contents


Background ............................................................................................... Page 1
Documentation Was Not Adequate to Support All of
the Invoiced Costs ..................................................................................... Page 2
         Recommendation 1: ........................................................................ Page 7
         Recommendations 2 and 3: ............................................................ Page 8

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 10
Appendix II – Major Contributors to This Report........................................ Page 12
Appendix III – Report Distribution List ....................................................... Page 13
Appendix IV – Outcome Measures ............................................................ Page 14
Appendix V – Management’s Response to the Draft Report ..................... Page 15
             Improvements Are Needed in the Invoice Review Process for the
                      Business Systems Modernization Contract

                                 In December 1998, the Internal Revenue Service (IRS)
Background
                                 awarded an indefinite-delivery/indefinite-quantity1 task
                                 order contract to provide for the design and development of
                                 an information system that allows the IRS to effectively and
                                 efficiently process tax return information, provide customer
                                 service, and maintain accurate financial records. This effort,
                                 known as Business Systems Modernization (BSM), is a
                                 partnership between the contractor and the IRS. The
                                 contract is estimated to span 15 years at a cost of $8 billion.
                                 According to the IRS Request Tracking System, as of
                                 September 2003, the IRS had approved payment of
                                 approximately $750 million for the BSM contract.
                                 The Federal Acquisition Regulation (FAR)2 stipulates that a
                                 contractor is responsible for accounting for costs
                                 appropriately and for maintaining records, including
                                 supporting documentation, adequate to demonstrate that
                                 costs claimed have been incurred. The FAR also provides
                                 that costs shall be allowed to the extent they are reasonable,
                                 allocable, and allowable under the FAR.
                                 Because contract expenditures represent a significant outlay
                                 of IRS funds, the Treasury Inspector General for Tax
                                 Administration (TIGTA) has made a commitment to
                                 perform audits of these expenditures. We initiated this audit
                                 to review the process the IRS has in place to certify invoices
                                 for the BSM contract and ensure charges on the invoices are
                                 accurate and supported.
                                 The timeliness of the audit was impaired due to significant
                                 delays in obtaining access to the contractor’s supporting
                                 documentation. Although we eventually received some
                                 records from the contractor, the records provided as of
                                 January 30, 2004, did not adequately support a significant
                                 amount of direct charges as described later in this report.
                                 Accordingly, we provided the IRS with a detailed listing of
                                 the unsupported charges in anticipation that the contractor
                                 would potentially provide additional documents in support
                                 of these charges.

                                 1
                                   In an indefinite-delivery/indefinite-quantity contract, the time of
                                 delivery is not specified but is established during performance, and the
                                 exact quantity to be ordered is unknown but is specified within
                                 minimum and maximum limits.
                                 2
                                   48 C.F.R. pt 1-53 (2002).
                                                                                                   Page 1
               Improvements Are Needed in the Invoice Review Process for the
                        Business Systems Modernization Contract

                                   The audit work was performed during the period
                                   March 2003 through January 2004 in the BSM Office
                                   within the Modernization and Information Technology
                                   Services function in New Carrollton, Maryland, and in the
                                   Procurement directorate within the Agency-Wide Shared
                                   Services office in Oxon Hill, Maryland. In addition, we
                                   interviewed the contractor’s accounting employees and
                                   reviewed contractor records in New Carrollton, Maryland.
                                   The audit was conducted in accordance with Government
                                   Auditing Standards. Detailed information on our audit
                                   objective, scope, and methodology is presented in
                                   Appendix I. Major contributors to the report are listed in
                                   Appendix II.
                                   The IRS’ process for reviewing and certifying invoices for
Documentation Was Not
                                   this contract does not ensure all charges are accurate and
Adequate to Support All of the
                                   supported. We found the contractor’s documentation was
Invoiced Costs
                                   not adequate to support all the charges invoiced.
                                   Because of the size and complexity of the BSM contract,
                                   our review focused on the Customer Account Data
                                   Engine (CADE) project.3 We selected the CADE because
                                   of the importance and high visibility of the project to the
                                   IRS and tax administration. We analyzed the invoices
                                   submitted from October 2000 through April 2003 and the
                                   associated task orders for the CADE project. Using a
                                   judgmental sample of four invoices from one judgmentally
                                   selected task order, we requested supporting documentation
                                   from the IRS and the contractor4 to verify all the direct
                                   charges5 included on the invoices, including employee labor
                                   hours, travel expenses, subcontractor costs (labor hour and
                                   other direct costs (ODC)/travel), and Internal Working
                                   Order (IWO)6 labor and travel expenses. We identified




                                   3
                                     The CADE will provide data storage for tax account and return
                                   information and perform tax administration.
                                   4
                                     We initially requested supporting documentation for the direct charges
                                   from the IRS. To complete the review, we needed to request additional
                                   information from the contractor to support the direct charges.
                                   5
                                     Direct costs are those that can be identified specifically with a contract.
                                   6
                                     IWO charges are for work completed by contractor employees outside
                                   of the usual Federal/Civil Sector Division of the contract.
                                                                                                       Page 2
Improvements Are Needed in the Invoice Review Process for the
         Business Systems Modernization Contract

                    approximately $9.5 million7 (approximately 54 percent) of
                    the $17.6 million in direct invoiced charges for which
                    neither the IRS nor the contractor provided any supporting
                    documentation, the documentation provided did not
                    adequately support the charge, or the cost was unallowable.
                    Nearly all the unsupported charges related to subcontractor
                    labor, subcontractor ODC/travel, and IWO labor and travel
                    expenses. A minimal amount, approximately $1,400, was
                    attributed to unallowable costs.
                    The following are examples of specific invoice charges for
                    which the contractor did not provide support or the support
                    provided was inadequate:
                        •    One of the invoices included charges of
                             approximately $2.7 million for subcontractor labor.
                             The contractor provided no supporting
                             documentation for these charges.
                        •    One of the invoices included a charge of
                             approximately $2.8 million for subcontractor
                             ODC/travel. The contractor provided a
                             subcontractor invoice as support for the charge;
                             however, the contractor provided checks payable to
                             the subcontractor totaling only $1.9 million.
                             Additionally, we could not attribute the $1.9 million
                             in checks to the subcontractor invoice (i.e., there
                             were no cross-references linking the checks to the
                             invoice).
                        •    The invoices included charges of approximately
                             $860,000 and $97,000 for IWO labor and IWO
                             travel, respectively. The documentation provided to
                             support these charges was an invoice from the
                             contractor’s IWO group with an attached list of
                             employees, their hours, and associated travel
                             expenses. We did not believe this documentation
                             was adequate to support these charges. The
                             contractor did not provide any documentation from
                             its timekeeping system to support the labor hours,


                    7
                     Subsequent to the issuance of the draft report, the contractor provided
                    documentation to support all but approximately $52,200 of the
                    $9.5 million we originally questioned.
                                                                                     Page 3
Improvements Are Needed in the Invoice Review Process for the
         Business Systems Modernization Contract

                            nor were any receipts provided for the travel
                            expenses.
                        •   Two of the invoices included charges for the fixed
                            fee.8 The contractor did not provide any support for
                            the fee.
                    Table 1 summarizes the questioned charges identified
                    during our review, using the categories as shown on the
                    invoice.
                                  Table 1: Schedule of Questioned Charges
                                   Questioned Activity                       Questioned
                                                                              Charges
                    Subcontractor Labor                                   $3 million
                    Subcontractor ODC/Travel                              $5 million
                    IWO Labor                                             $860,000
                    IWO Travel                                            $97,000
                    Civil Group Travel                                    $1,400
                    Tech Pubs Allocation                                  $28,000
                    Other ODC                                             $12,000
                    Fixed Fee                                             $518,000
                    Total                                                 $9.5 million
                    Source: TIGTA analysis of four invoices submitted to the IRS.

                    The IRS has an agreement in place with the contractor
                    outlining the invoice review process. The agreement
                    provides that the Contracting Officer and Contracting
                    Officer Technical Representative (COTR) will review the
                    invoices and submit any requests for necessary supporting
                    documentation to the contractor within 7 calendar days of
                    receipt of the invoice. The agreement also outlines COTR
                    invoice review responsibilities. These responsibilities
                    include ensuring all costs are commensurate with the task
                    order, verifying compliance with special contract terms and
                    conditions, verifying indirect billing rates, and verifying
                    mathematical accuracy.


                    8
                     The fixed fee is the fee agreed upon for the performance of a
                    cost-plus-fixed-fee contract.
                                                                                       Page 4
Improvements Are Needed in the Invoice Review Process for the
         Business Systems Modernization Contract

                    The IRS does not routinely receive supporting
                    documentation for invoices submitted by the contractor.
                    According to IRS personnel, to verify an invoice, the COTR
                    forwards the invoice to the Acquisition Project Manager
                    (APM) to review the charges on the invoice. If the APM
                    raises questions regarding any charge, the COTR requests
                    the supporting documentation for the questioned charge and
                    a determination is made as to whether the charge is valid. If
                    no charges are questioned, the invoice is paid in full.
                    The IRS review process identified issues and withheld
                    monies from three of the four invoices included in our
                    sample. Specifically, the IRS withheld the following
                    amounts:
                        •   For 1 invoice, $77,000 was withheld because the
                            amount billed exceeded the funds allotted to the
                            contract. According to the COTR, $77,000 was paid
                            to the contractor over several subsequent invoices.
                        •   For another invoice, $313,000 of the fixed fee was
                            withheld because the amount was billed in error.
                            This amount has not been paid to the contractor. On
                            the same invoice, $80,000 was withheld because the
                            amount billed exceeded the funds allotted to the
                            contract. The $80,000 has not been paid.
                        •   On the third invoice, only $72,000 of the
                            $1.1 million has been paid to the contractor. The
                            remaining amount is being withheld because this
                            invoice was for change requests and the work has
                            not been completed.
                    Additionally, the Defense Contract Audit Agency (DCAA)
                    performed various audits of this contractor.9 Since
                    September 2000, the DCAA has reported deficiencies with
                    the contractor’s budget and planning system, the billing
                    system, and the indirect and ODC system, including related
                    internal control policies and procedures. Because of the size
                    and complexity of the invoices and the system inadequacies
                    reported by the DCAA, we believe a more thorough review
                    of the invoices needs to be performed to ensure all charges

                    9
                      We coordinated with the DCAA to ensure our audit of specific
                    invoices did not duplicate its efforts.
                                                                                     Page 5
Improvements Are Needed in the Invoice Review Process for the
         Business Systems Modernization Contract

                    are accurate, supported, and allowable. These reviews
                    should include obtaining documentation from the contractor
                    to support charges contained on the invoices.
                    As previously mentioned, the FAR provides that a
                    contractor is responsible for accounting for costs
                    appropriately and for maintaining records, including
                    supporting documentation, adequate to demonstrate that
                    costs claimed have been incurred. Because we were unable
                    to verify the above costs, there is no assurance the
                    contractor billed the IRS accurately. Additionally, without
                    an effective process to ensure charges included on invoices
                    are accurate and supported, the IRS is at risk of wasting
                    Federal Government funds.
                    Unallowable charges
                    We identified approximately $1,400 of unallowable
                    expenses10 in our judgmental sample of 4 invoices. These
                    charges were for meals provided at meetings or conferences
                    to contractor, subcontractor, and/or IRS employees.
                    Additionally, $671 of the $1,400 was billed and paid for on
                    2 separate invoices included in our review. Therefore, the
                    IRS paid for the expense twice. IRS personnel explained
                    they approved these charges because the contractor believed
                    that, by allowing attendees to leave the meeting or
                    conference for lunch, key points in the presentations would
                    be missed.
                    According to the Principles of Federal Appropriations
                    Law,11 appropriated funds are not available to pay
                    subsistence or to provide free food to Federal Government
                    employees at their official duty stations. Appropriation law
                    extends the prohibition to non-Government personnel. The
                    Principles of Federal Appropriations Law further state,
                             Just as the entertainment of government
                             personnel is generally unauthorized, the
                             entertainment of non-government personnel
                             is equally impermissible. The basic rule is


                    10
                       An unallowable expense is a cost incurred by the contractor that is not
                    chargeable to Federal Government contracts.
                    11
                       Principles of Federal Appropriations Law, Second Edition, published
                    by the General Accounting Office.
                                                                                      Page 6
Improvements Are Needed in the Invoice Review Process for the
         Business Systems Modernization Contract

                           the same regardless [of] who is being fed or
                           entertained; appropriated funds are not
                           available for entertainment, including free
                           food except under specific authority.
                    Additionally, the FAR provides that the costs of amusement,
                    diversions, social activities, and any directly associated
                    costs, such as tickets to shows or sporting events, meals,
                    lodging, rentals, transportation, and gratuities, are
                    unallowable.
                    In August 2003, the Office of Procurement issued an Office
                    of Modernization Acquisition Directive that stipulates
                    payment to contractors for free food/entertainment or
                    refreshments for Federal Government, contractor, and/or
                    subcontractor employees would be unallowable unless the
                    reimbursement meets an exception authorized under law.
                    We believe the charges discussed above should not have
                    been allowed; however, the IRS took the appropriate steps
                    in issuing a directive that prohibits the allowance of these
                    charges in the future. Notwithstanding the directive and the
                    earlier decision to allow these prior charges, the IRS at a
                    minimum should recover the $671 in duplicate charges.

                    Recommendations

                    The Director, Office of Procurement, should:
                    1. Seek recovery of the $9.5 million unless the contractor
                       provides acceptable support for those charges.
                    Management’s Response: The Office of Procurement
                    requested and received documentation from the contractor
                    to support the costs questioned. The Office of Procurement
                    will continue to review the supporting documentation and
                    will seek recovery of any unsupported charges, if
                    applicable.
                    Office of Audit Comment: Subsequent to the issuance of
                    the draft report, we met with the contractor and the IRS.
                    The contractor agreed to provide us and the IRS with all
                    supporting documentation to verify the $9.5 million in
                    questioned charges. After our review of the additional
                    documentation, we were able to verify all but approximately
                    $52,200 of the $9.5 million we originally questioned.
                                                                          Page 7
Improvements Are Needed in the Invoice Review Process for the
         Business Systems Modernization Contract

                    For the $52,200 still questioned, the contractor either did
                    not provide documentation to support the charge, the charge
                    was unallowable, or the charge seemed unreasonable. We
                    identified additional unallowable costs of $1,465 in other
                    ODCs. These charges were for meals provided at meetings.
                    Additionally, we identified approximately $21,700 in travel
                    charges that we consider unreasonable. These include
                    overcharges of meals and incidental expenses, corporate
                    apartments for employees where an employee was at the
                    temporary duty station for only 10 days during the month,
                    and charges for incidental expenses, which included food.
                    Table 2 summarizes the questioned charges still outstanding
                    using the categories as shown on the invoice.
                            Table 2: Schedule of Questioned Charges Outstanding
                       Questioned Activity          Unsupported         Unreasonable/
                                                      Charges            Unallowable
                                                                          Charges
                    Subcontractor Labor                   $5,759.16
                    IWO Travel                           $21,551.43           $21,707.94
                    Civil Group Travel                      $339.58
                    Other ODCs                                                 $2,807.23
                    Total                                $27,650.17           $24,515.17
                    Source: TIGTA analysis of supporting documentation for four invoices
                    submitted to the IRS.

                    The contractor should continue to work with the IRS to
                    provide additional support for the outstanding unsupported
                    charges of $27,650. However, if the contractor is unable to
                    provide sufficient documentation, the IRS should seek
                    recovery of the outstanding unsupported charges and the
                    $24,515 in unreasonable or unallowable charges.
                    2. Initiate a program to review a representative sample of
                       invoices submitted since the inception of the contract
                       and ensure charges paid are accurate and supported.
                       This may include requesting DCAA audit assistance.
                    Management’s Response: The Office of Procurement
                    believes standard contract closeout audits, performed for
                    cost-reimbursement contract actions, will accomplish the


                                                                                 Page 8
Improvements Are Needed in the Invoice Review Process for the
         Business Systems Modernization Contract

                    same objective as the recommendation, without the need for
                    a separate program.
                    3. Institute a policy of performing invoice reviews, which
                       includes obtaining supporting documentation from the
                       contractor for the charges included on an invoice, to
                       ensure charges are accurate and supported before
                       payment is made.
                    Management’s Response: The Office of Procurement has
                    an existing policy for performing invoice reviews, which
                    includes obtaining supporting documentation to ensure
                    charges are accurate and supported before payment is made.
                    While the audit team experienced difficulty obtaining
                    documentation from the contractor for the review, the
                    contractor has committed to provide any documentation
                    necessary to support the charges referenced in the report, as
                    well as any future requests for supporting documentation.
                    Office of Audit Comment: The contractor initially did not
                    provide sufficient documentation to support the charges on
                    the four invoices we selected for our review. However,
                    after the draft report was issued to the IRS, the contractor
                    cooperated and provided the appropriate documentation to
                    support the invoices. The contractor’s delay in providing
                    the necessary documentation prevented us from completing
                    the audit timely. To assure that its billings are adequately
                    justified, and to facilitate timely, independent review by
                    TIGTA auditors, we continue to believe the IRS should
                    strengthen its invoice review process by routinely requesting
                    and reviewing a sample of supporting documents.




                                                                          Page 9
                Improvements Are Needed in the Invoice Review Process for the
                         Business Systems Modernization Contract

                                                                                                  Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this audit was to determine whether the Internal Revenue Service (IRS)
is properly reviewing and certifying invoices for the Business Systems Modernization (BSM)
contract to ensure all charges are accurate and supported. To accomplish our objective, we:
I.      Determined the methodology the IRS has in place to verify invoices before certifying
        payment to the contractor.
II.     Determined whether the charges included on the invoices submitted by the contractor
        were supported and allowable.
        A. Prepared a sampling plan and judgmentally selected a sample of invoices. A
           judgmental sample was used because we did not plan to project the results to the
           universe. Because of the size and complexity of the BSM contract, our review
           focused on the Customer Account Data Engine (CADE) project.1 We selected the
           CADE because of the importance and high visibility of the project. We analyzed the
           invoices submitted from October 2000 through April 2003 and the associated task
           orders for the CADE project. Three cost-reimbursable task orders2 were issued, with
           27 invoices, totaling approximately $36 million, submitted as of April 2003. We
           judgmentally selected one task order, task order 73, from which to select our
           judgmental sample of invoices. We selected a sample of 4 of the 12 invoices for task
           order 73 to verify all the direct costs,3 including labor hours, travel expenses
           (e.g., airfare, hotel, mileage) and subcontractor charges, and reviewed the contractor’s
           supporting documentation. Our sample covered approximately $15.7 million4
           (56 percent) of the total amount invoiced for the task order selected (approximately
           $28 million).
        B. For the invoices included in our sample, obtained supporting documentation from the
           contractor and verified all direct charges on the invoices.
             1. Verified the mathematical accuracy of each invoice and any supporting
                documentation provided.




1
  The CADE will provide data storage for tax account and tax return information and perform tax administration.
2
  Cost-reimbursable task orders provide payment to the contractor for allowable incurred costs.
3
  Direct costs are those that can be identified specifically with a contract.
4
  Although the total amount of the invoices was $15.7 million, the amount of direct charges verified on the
4 invoices was approximately $17.6 million. Two of the four invoices included significant amounts of adjustment
for excess funding. We verified all the direct charges without consideration of the excess funding adjustments.
                                                                                                        Page 10
      Improvements Are Needed in the Invoice Review Process for the
               Business Systems Modernization Contract

   2. Prepared a schedule of charges, including the labor category, labor rate, and hours
      charged; traced the charges to supporting documentation; and determined whether
      the charges were appropriate.
   3. Traced travel costs included on the invoices to supporting documentation
      (e.g., airline/hotel receipts) and determined whether the charges were appropriate.
C. Determined whether unsupported, questioned, or disallowed charges were re-billed
   on a subsequent invoice and whether the IRS certified these charges for payment.




                                                                                  Page 11
             Improvements Are Needed in the Invoice Review Process for the
                      Business Systems Modernization Contract

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
John R. Wright, Director
Debra Gregory, Audit Manager
Terrey Haley, Senior Auditor
Rosemarie Maribello, Senior Auditor
Rita Woody, Senior Auditor
Niurka Thomas, Auditor




                                                                                      Page 12
            Improvements Are Needed in the Invoice Review Process for the
                     Business Systems Modernization Contract

                                                                            Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Chief Information Officer, Business Systems Modernization OS:CIO:B
Director, Office of Procurement OS:A:P
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Control OS:CFO:AR:M
Audit Liaisons:
       Chief, Agency-Wide Shared Services A
       Associate Chief Information Officer, Business Systems Modernization OS:CIO:B
       Director, Office of Procurement OS:A:P




                                                                                  Page 13
              Improvements Are Needed in the Invoice Review Process for the
                       Business Systems Modernization Contract

                                                                                   Appendix IV


                                     Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
   •   Cost Savings, Questioned Costs – Potential; $52,165.34 (see page 2).
   •   Cost Savings, Questioned Costs (Unsupported portion of the questioned costs) –
       Potential; $27,650.17 (see page 2).
Methodology Used to Measure the Reported Benefit:
To determine the outstanding questioned costs, we reviewed the additional documentation
provided by the contractor to support the $9.5 million in costs originally questioned. We
identified $27,650.17 in costs for which the contractor did not provide support. Additionally, we
identified $21,707.94 in what we consider to be unreasonable and therefore unallowable costs
and $2,807.23 in unallowable costs.




                                                                                          Page 14
Improvements Are Needed in the Invoice Review Process for the
         Business Systems Modernization Contract

                                                            Appendix V


       Management’s Response to the Draft Report




                                                                Page 15
Improvements Are Needed in the Invoice Review Process for the
         Business Systems Modernization Contract




                                                                Page 16
Improvements Are Needed in the Invoice Review Process for the
         Business Systems Modernization Contract




                                                                Page 17
Improvements Are Needed in the Invoice Review Process for the
         Business Systems Modernization Contract




                                                                Page 18
Improvements Are Needed in the Invoice Review Process for the
         Business Systems Modernization Contract




                                                                Page 19
